UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHTNGTON, D.C. 20580

Bureau of Competition
Health Care Division

November 30, 2012
Dionne C. Lomax
Vinson & Elkins LLP
2200 Pennsylvania Avenue NW
Suite 500 West
Washington, DC 20037
Re:

The Methodist Hospital System Advisory Opinion

Dear Ms. Lomax:
This letter responds to your request on behalf of The Methodist Hospital System ("Methodist")
for an advisory opinion concerning Methodist's proposal to sell certain critical shortage drugs to
Baytown EMS, a division of the Baytown, Texas, city government, during the pendency of the
shortage. Baytown EMS serves as the exclusive 9-1-1 emergency transport service for Baytown
residents. You requested our view on the permissibility of these proposed sales under the
Robinson-Patman Act.' Specifically, you requested that we opine on the applicability of the
Non-Profit Institutions Act ("NPIA") to the proposal. The NPIA provides an exemption from
liability under the Robinson-Patman Act for purchases of supplies by certain non-profit
organizations for their own use. 2
We need not reach the NPIA question, however, because Methodist's proposal, as presented,
appears to be a pennissible emergency humanitarian gesture. As explained below, Methodist
proposes to sell pharmaceuticals to Baytown EMS for the sole purpose of assisting Baytown
EMS in the care of patients during a time of nationwide shortages of certain critical drugs. Given
these facts, it is our view that, pursuant to the Supreme Court's discussion ofa hospital's role in
an emergency in Abbott Labs. v. Portland Retail Druggists Ass 'n, Inc., 425 U.S. I (1976) and the
Commission's similar discussion in its St. Peter's Hospital of the City ofAlbani advisory

, 15 U.S.C. ยง 13.
2 15 U.S.C. ยง 13c (exempting from the Robinson-Patman Act "purchases of supplies for their own use by
schools, colleges, universities) public libraries, churches, hospitals, and charitable institutions not operated for
profit").
3

St. Peter's Hospital of the City ofAlbany, 92 F.T.C. 1037 (1978) (Commission advisory opinion).

The Methodist Hospital System Advisory Opinion
November 30, 2012
Page 2
opinion, Methodist may resell the needed pharmaceuticals to Baytown EMS as a humanitarian
gesture during the shortages. 4
Factual Background
As we understand the facts based on information you provided, Methodist is a non-profit
hospital system that provides comprehensive care to its patients. It is based in Houston, Texas,
and purchases its pharmaceuticals through a group purchasing organization at an NPIAdiscounted price. 5 Methodist is comprised of inpatient facilities, outpatient surgery centers,
imaging centers, and emergency care centers. CUlTently, its facilities include five hospitals. One
of Methodist's hospitals is San Jacinto Methodist Hospital, which is a 392-bed general acute care
inpatient facility located about 30 miles east of downtown Houston, in Baytown, Texas. 6 San
Jacinto Methodist is the only hospital within Baytown's city limits.' Further, it is the only
hospital in the Baytown area that provides the full range of acute care inpatient health services. s
Baytown EMS is the exclusive transport provider for the City of Baytown's 9-1-1 service. It is a
division of the city of Baytown and was created under the Emergency Healthcare Act for the sole
purpose of providing critical medical care and emergency medical transportation services to the
citizens of Baytown. By city ordinance, Baytown EMS is the only emergency medical service
transport allowed to respond within the city limits. It employs 21 paramedics and has four frontline ambulances. 9 The vast majority of Baytown EMS's emergency transports go to San Jacinto

4 This advisory opinion should not be construed as taking the position that the Robinson-Patman Act
necessarily applies to these facts, or that Methodist's proposed sale to Baytown EMS would violate the RobinsonPatman Act absent the shortage situation or other applicable exemption. We provide this opinion, under these unique
circumstances of critical drug shortages~ in an effort to provide reassurances that may be helpful to entities in their
efforts to cope with the current drug shortages.

5 Letter from Dionne C. Lomax, Vinson & Elkins LLP, to Markus H. Meier, FTC (July 25, 2012)
[hereinafter "July Letter"]; Letter from Dionne C. Lomax, Vinson & Elkins LLP, to Robert S. Canterman, FTC
(Sept. 6, 2012) [hereinafter "September Letter"]'

6

See http://www.methodisthealth.com (viewed September 17,2012); July Letter.

, September Letter.
8

July Letter.

9

July Letter; September Letter.

The Methodist Hospital System Advisory Opinion
November 30,2012
Page 3
Methodist. 10 Though it can collect fees for its services, Baytown EMS does not generate a
profit."
As you have explained, during transport of patients to hospitals for care, it may be necessary for
Baytown EMS to administer certain phannaceuticals prior to arrival at the hospital. Indeed, the
administration of certain phannaceuticals at the first point of care can be critical to a patient's
clinical outcome. Recently, however, owing to well-publicized nationwide shortages of certain
critical drugs, Baytown EMS has been unable to keep its ambulances stocked with safe inventory
levels of certain of these clitical pharmaceuticals. Efforts to secure supply from other vendors
have not succeeded, and the problem appears to be prevalent throughout the region.'2
To assist Baytown EMS in dealing with the drug shortages and to ensure that its patients, which
comprise tlte vast majority of Baytown EMS's transports, receive the necessary clinical care en
route to the hospital, Methodist proposes to sell, at cost, critical shortage drugs to Baytown EMS.
As you explained to us, Methodist would continue this arrangement only for so long as the drugs
are in shortage.'3
Analysis

The Supreme Court's opinion in Abbott Labs. v. Portland Retail Druggists Ass 'n, Inc., 425 U.S.
1 (1976) guides our analysis of permissible uses of NPIA-discounted phannaceuticals. There,
in addition to clarifying the applicability of the NPIA exemption to the Robinson-Patman Act,
the Supreme Court addressed the appropriate role of a hospital in an emergency situation. It
stated:
We recognize, however, that there may be an occasion when the hospital
pham1acy is the only one available in the community to meet a particular
emergency situation.... So long as the hospital phannacy holds the emergency
situation within bounds, and entertains it only as a humanitarian gesture, we shall
not condemn the hospital and its suppliers to a Robinson-Patman violation
because of the presence of the occasional walk-in dispensation of that type. '4

10

See id.

" September Letter.
'2

July Letter; September Letter.

13

See id.

'4 See Abbott at 18. The Court further noted that the occasional emergency would likely be de minimis in

any event.

The Methodist Hospital System Advisory Opinion
November 30,2012
Page 4
Applying the Supreme Court's reasoning in Abbott, the Commission previously has determined
that a hospital could resell pharmaceutieals it purchased pursuant to the NPIA diseount to the
general public during an emergency caused by a Medicaid strike. In its St. Peter's opinion, the
Commission concluded that "if needed pharmaceuticals are not available or difficult to obtain,
[the hospital) may resell the needed pharmaceuticals to the general public as a humanitarian
gesture during the emergency caused by the [Medicaid) strike.,,15
Methodist's proposal appears consistent with both the Supreme Court's reasoning in Abbott and
the Commission's reasoning in St. Peter's. As we understand the facts you have presented,
Methodist runs the only hospital within Baytown's city limits. To assist Baytown EMS during a
time of well-publicized nationwide shortages of clitical drugs, Methodist seeks to sell certain
shortage drugs that it obtains at the NPIA-disconnted price to Baytown EMS. These shortage
drugs are necessary to the care of Baytown EMS's emergency transport patients, most of whom
are transported to Methodist and ultimately become patients of Methodist. Despite its efforts to
do so, Baytown EMS has been nnable to secure adequate supply of these drugs from other
sources. Methodist only proposes to assist Baytown EMS during the pendency of the shortages.
Thus, applying Abbott and St. Peter's, it is our opinion that Methodist may resell the needed
shortage drugs to Baytown EMS to assist Baytown EMS in its efforts to maintain safe inventory
levels of those products for use in the treatment of its emergency transport patients.
Conclusion

As diseussed above, we conclude that Methodist's proposal to resell pharmaceuticals to Baytown
EMS to assist Baytown EMS in its efforts to cope with shortages of certain critical drugs would
be a permissible humanitarian gesture and that Methodist may resell the needed pharmaceuticals
to Baytown EMS during the shortages.
This letter sets out the views of the staff of the Bureau of Competition, as authorized by the
Commission's Rules of Practice. Under Commission Rule ยง 1.3(c), 16 C.P.R. ยง 1.3(c), the
Commission is not bound by this staff opinion and reserves the right to rescind it at a later time.
In addition, this office retains the right to reconsider the questions involved and, with notice to
the requesting party, to rescind or revoke the opinion if implementation of the proposed program
results in substantial anticompetitive effects, if the program is used for improper purposes, if
facts change significantly, or ifit otherwise would be in the public interest to do so.
Sincerely,

MPI.L~

Markus H. Meier
Assistant Director

IS

St. Peter's H05pitai of the City of Albany, 92 F.T.C. 1037 (1978) (Commission advisory opinion).

